No. 19-1348
IN THE

Supreme Court of the United States
IN RE: FEDERAL BUREAU OF PRISONS’ EXECUTION PROTOCOL CASES
JAMES H. ROANE, JR., et al.,
Petitioners,
v.
WILLIAM P. BARR, ATTORNEY GENERAL, et al.,
Respondents.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the D.C. Circuit
EMERGENCY CONSENT MOTION FOR EXPEDITED
CERTIORARI-STAGE BRIEFING

PIETER VAN TOL
HOGAN LOVELLS US LLP
390 Madison Avenue
New York, NY 10017

CATHERINE E. STETSON
Counsel of Record
DANIELLE DESAULNIERS STEMPEL*
REEDY C. SWANSON
HOGAN LOVELLS US LLP
555 Thirteenth Street, NW
Washington, DC 20004
(202) 637-5600
cate.stetson@hoganlovells.com
* Admitted only in Maryland; practice supervised by principals of the firm admitted in D.C.

Counsel for Daniel Lewis Lee
June 17, 2020
Additional counsel listed on next page

JOSEPH W. LUBY
ALEX KURSMAN
LYNNE KOLODINSKY
FEDERAL COMMUNITY
DEFENDER OFFICE E.D. PA.
601 Walnut Street
Suite 545 West
Philadelphia, PA 19106
(215) 928-0520

ALAN E. SCHOENFELD
STEPHANIE SIMON
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
New York, NY 10007
(212) 230-8800
Counsel for Wesley Purkey

Counsel for Alfred Bourgeois
SHAWN NOLAN
TIMOTHY KANE
DEVON PORTER
FEDERAL COMMUNITY
DEFENDER OFFICE E.D. PA.
601 Walnut Street
Suite 545 West
Philadelphia, PA 19106
(215) 928-0520

JON JEFFRESS
KAISERDILLON PLLC
1099 Fourteenth Street, N.W.
8th Floor West
Washington, DC 20005
(202) 640-2850

Counsel for Dustin Lee Honken

Petitioners respectfully submit this Motion for Expedited Certiorari-Stage
Briefing pursuant to Supreme Court Rule 21. Counsel for the Government consents
to the relief requested.
The D.C. Circuit rendered judgment in this case on April 7, 2020. Pet. App.
1a. In a badly fractured opinion, that court adopted a reading of the Federal Death
Penalty Act endorsed by none of the parties to this case and not considered by the
District Court. Although the case was “en banc worthy,” the D.C. Circuit denied rehearing on May 15 given this Court’s instruction “to proceed ‘with appropriate dispatch.’” Id. at 129a (statement of Tatel, J.) (quoting Barr v. Roane, 140 S. Ct. 353
(2019)).
Although this Court’s current rules allow Petitioners 150 days to file a certiorari petition, they did so in just three weeks, on June 5, 2020. Petitioners also
asked this Court to stay the D.C. Circuit’s mandate pending consideration of the petition, which would be considered in approximately three months according to this
Court’s usual rules.
Two days ago, however, despite the universal disagreement with the decision
below and lingering confusion about what it actually means, see Pet. 16-18, the
Government set execution dates for three of the four Petitioners in approximately
one month, Stay Appl. Reply App. 1a, proposing to execute them while their petition
remains pending, see Stay Opp’n 39.1

1

Petitioner Bourgeois’s execution has been stayed in a separate litigation based on his intellectual
disability. See Bourgeois v. Warden, No. 2:19-cv-00392-JMS-DLP, 2020 WL 1154575, at *1, 3-5 (S.D.
Ind. Mar. 10, 2020). The Government has also set Keith Dwayne Nelson’s execution for August 28,
2020. Stay Appl. Reply App. 1a.

1

In light of that development, Petitioners respectfully request that this Court
set the following briefing schedule to ensure that the petition may be considered
this Term, before Petitioners are executed:
June 19, 2020, at 5:00 p.m.

Respondents’ brief in opposition due and
amicus briefs supporting either side due

June 22, 2020, at 5:00 p.m.

Petitioners’ reply brief due

This schedule would permit the Court to consider the petition at the conference
scheduled for June 25, 2020.

2

Respectfully submitted,

PIETER VAN TOL
HOGAN LOVELLS US LLP
390 Madison Avenue
New York, NY 10017

/s/ Catherine E. Stetson
CATHERINE E. STETSON
Counsel of Record
DANIELLE DESAULNIERS STEMPEL*
REEDY C. SWANSON
HOGAN LOVELLS US LLP
555 Thirteenth Street, NW
Washington, DC 20004
(202) 637-5600
cate.stetson@hoganlovells.com
* Admitted only in Maryland; practice supervised by principals of the firm admitted
in D.C.

Counsel for Daniel Lee Lewis
JOSEPH W. LUBY
ALEX KURSMAN
LYNNE KOLODINSKY
FEDERAL COMMUNITY
DEFENDER OFFICE E.D. PA.
601 Walnut Street
Suite 545 West
Philadelphia, PA 19106
(215) 928-0520

ALAN E. SCHOENFELD
STEPHANIE SIMON
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
New York, NY 10007
(212) 230-8800
Counsel for Wesley Purkey

Counsel for Alfred Bourgeois
SHAWN NOLAN
TIMOTHY KANE
DEVON PORTER
FEDERAL COMMUNITY
DEFENDER OFFICE E.D. PA.
601 Walnut Street
Suite 545 West
Philadelphia, PA 19106
(215) 928-0520

JON JEFFRESS
KAISERDILLON PLLC
1099 Fourteenth Street, N.W.
8th Floor West
Washington, DC 20005
(202) 640-2850

Counsel for Dustin Lee Honken
June 17, 2020
3

